i
     From:O           I          G

     TO: a            d          , olG l   n   v   e   s   t   i   g   a   t   i   o   n   ZY
                                                                                           ~

     Subject: Memorandum for File- Case Closed for
     Recharge Centers (19603001~)

     OIG audit and OIG investigations conducted a joint review in the summer of
                               erning the recharge centers established by the
                                epartment of Chemistry during FY83-89. It was
                                  concerned various matters that were audit-related
     and therefore, responsibility for the case has been assumed by OIG Audit.
     The investigative file has been closed.

     Alleqations

     It was alleged that the centers
                      did not meet the definition of a recharge center in
                      administration and use prior to 1993,
                      that some accounts paid a summer salary to one PI and
                      supQpied travel,
                      tha      did not exercise accountability for grant funding and
                      allowed retaliation against whistleblowers.

    Complainants


    em              ex- Chair of the Chemistry Department) and
                    (ex-Department Business Manager, has transferred within
       the University).

    Proqram Backqround:

    Recharge centers at universities operate as in-house non-profit enterprises to
    share equipment and services among researchers. Operations are funded
    through user fees based on established billing rates and actual services
                     are separate from the general indirect cost rate of an
    Kgtl,"n.         Circular A-21 requires that billing rates be based on
    recovery of the aggregate cost of a good or service over a long-term and that
    rates should be reviewed periodically and adjusted if necessary.

    ~ h eOIGl reviewed recharge centers at 12 universities in 1994 and found
    common problems of surplus balances, inconsistent billing practices and no
    review of billin rates, improper classifications f expense, and unrelated use
    of funds. d e c l i n e d to pursue a review of&
    Facts: From documentation received f r o r n l a n d Dr.


                          the-,( etc.,
                                                               -
             1) Over $1 millio was tra'nsferre from research accounts funded by
                N S F , ~                                           into the
                recharge center accounts WI hou suppo rng o urnentation;
                $600~; remains unspent (A-21 requires fees to approximate
                expenditures).

          2) The billing rates were undocumented and unsubstantiated. Rates
             of $200 and $240 per hour were charged for the facilities; when the
             Business Manager of the Department calculated an hourly rate, the
             subsequent rate became $4.30 per hour. Significant in this
             differential was expensing equipment even though acquisition is
             unknown or was purchased with grant funds.


          3) All fees were charged to research a            der the direction of
                                                  IiW       (4 accounts) and Dr.
                                     accounts). Although record keeping on
                                     as non-existent, no other user paid prior to


          4) It appears that the complainants did not receive whistle-blower
             protection and were subjected to hostility. ~r.-is       pursing
             legal recourse for defamation and maltreatment.

Resolution

These issues will be resolved through the audit'process.
